<html>
<title> - SEXUAL ASSAULT IN THE MILITARY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                SEXUAL ASSAULT IN THE MILITARY--PART II

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2008

                               __________

                           Serial No. 110-188

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
51-636                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
JACKIE SPEIER, California
                       Dave Turk, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2008...............................     1
Statement of:
    Whitley, Kaye, Director, Sexual Assault Prevention and 
      Response Office, U.S. Department of Defense; and Brenda S. 
      Farrell, Director, Defense Capabilities and Management, 
      U.S. Government Accountability Office......................    27
        Farrell, Brenda S........................................    52
        Whitley, Kaye............................................    27
Letters, statements, etc., submitted for the record by:
    Farrell, Brenda S., Director, Defense Capabilities and 
      Management, U.S. Government Accountability Office, prepared 
      statement of...............................................    54
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    10
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Letter dated April 15, 2004..............................    15
        Prepared statement of....................................     5
    Whitley, Kaye, Director, Sexual Assault Prevention and 
      Response Office, U.S. Department of Defense, prepared 
      statement of...............................................    30


                SEXUAL ASSAULT IN THE MILITARY--PART II

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Maloney, Lynch, Yarmuth, 
Braley, McCollum, Shays, Platts, Turner, and Foxx.
    Also present: Representative Harman.
    Staff present: Dave Turk, staff director; Andrew Su, 
professional staff member; Davis Hake, clerk; Mary Anne 
McReynolds, graduate intern; and Alex McKnight, fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``Sexual Assault in the Military--Part II,'' will come to 
order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. And if the Chair or ranking member of the full 
committee should come, we will also have them make opening 
statements if they so desire.
    Without objection, so ordered.
    I ask unanimous consent that the following Members be 
allowed to participate in this hearing: Congresswoman Jane 
Harman from California, Congresswoman Susan Davis of California 
and Congresswoman Diane Watson from California. Pursuant to 
House rules, these Members will be allowed to ask questions of 
our witnesses after all members of the subcommittee have first 
had an opportunity to do so.
    Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all of the members of the 
subcommittee will be allowed to submit a written statement for 
the record.
    Without objection, so ordered.
    Good morning, and thank you all for being here today. We 
continue our oversight into sexual assault in the U.S. 
military. In July, this subcommittee held the first 
congressional hearing focusing on the military's sexual assault 
prevention and response programs since 2006. We heard from two 
brave women who shared their personal and deeply moving stories 
with us, Ms. Ingrid Torres and Ms. Mary Lauterbach.
    Ms. Torres is an employee of the American Red Cross who was 
stationed at military bases, was raped by an installation 
doctor at Kunsan Air Base in South Korea. She told us how she 
received different levels of care by various victim advocates 
and health specialists, including some who had little to no 
knowledge of the military's own prevention and response 
procedures.
    Mrs. Lauterbach, the mother of Marine Lance Corporal Maria 
Lauterbach, told us how she is still trying to get answers 
about her daughter's rape and subsequent death by a fellow 
soldier. She also provided specific recommendations to improve 
the system for other potential victims and their families.
    We heard testimony from top congressional leaders, 
including Congresswomen Louise Slaughter and Jane Harman, about 
their proposals to bring additional improvements. We received 
preliminary testimony from the Government Accountability 
Office, GAO, on its in-depth, on-the-ground investigation into 
the Defense Department's sexual assault prevention, response 
and oversight efforts. Today the GAO will testify again, this 
time on the final results of its investigation, which includes 
specific recommendations for the Defense Department.
    Finally, at the July hearing we also heard from General 
Michael Rochelle on the Army's effort to prevent and respond to 
sexual assaults.
    We did not, however, hear from all the necessary executive 
branch voices, and that is why we are here again today.
    Beginning several months ago, we had asked to receive 
testimony from the Defense Department's top expert on sexual 
assault, Dr. Kaye Whitley, the director of the Department's 
Sexual Assault Prevention and Response Office. Dr. Whitley's 
office is, by the Pentagon's own acknowledgement, the ``single 
point of accountability for Department of Defense sexual 
assault policy.''
    Inexplicably, the Defense Department refused to allow Dr. 
Whitley to testify before Congress. The Oversight Committee, 
with bipartisan support, was forced to subpoena her.
    Despite this valid congressional subpoena, Dr. Whitley did 
not appear to testify. And according to Principal Deputy Under 
Secretary Dominguez, Dr. Whitley's superior, he told her or 
ordered her not to comply with the subpoena and not to attend 
the July hearing. Such an order does not, however, absolve Dr. 
Whitley from any personal responsibility to comply with the 
subpoena directed to her.
    Not only did Dr. Whitley and the Department choose to defy 
a valid, legal subpoena and to place Dr. Whitley in danger of 
contempt and personal legal jeopardy for her nonappearance, but 
the Department gave no valid, legal justification for 
restricting her from appearing, and Dr. Whitley proffered none 
as well. Over August, this committee, again on a bipartisan 
basis, was forced to press the matter directly to the Defense 
Department.
    We are satisfied that Dr. Whitley is appearing unfetterred 
before us today to shed light on the work of her office and the 
challenges remaining. But what kind of a message does her and 
the Department's unwillingness until now to allow testimony 
send to our men and women in uniform? Do they take Dr. 
Whitley's office seriously? Is she being muzzled, or is the 
Department hiding something?
    Let me be clear: Preventing and responding to sexual 
assault perpetrated against our soldiers is simply much too 
important to be playing a game of cat and mouse. We hope that 
Dr. Whitley's presence here today is an indication that, going 
forward, the Defense Department will give sexual assault 
prevention and response the attention, resources and urgency it 
deserves. We also hope that Dr. Whitley's presence with us 
today presages the kind of bipartisan, constructive focus we 
envisioned when deciding to conduct oversight in this important 
issue.
    But just because the Pentagon establishes a sexual assault 
office does not ensure that our task in preventing and 
responding to sexual assaults is complete. Just because the 
Defense Department's Task Force on Sexual Assault, after 3 long 
years, finally had its first public meeting in August does not 
mean that we can all collectively take a sigh of relief. Far 
from it; an incredible amount of work remains.
    As the GAO will document more fully later this morning, 
programs need to be standardized and staffed with dedicated 
personnel and dedicated funding. A message of zero tolerance 
needs to be vigorously enforced all the way up the chain of 
command. The message must come clearly, repeatedly and 
vigorously that not a single case of sexual assault by or 
against a member of the U.S. military is tolerable and that it 
will be punished to the full extent of the law.
    I understand that the military has taken the GAO findings 
and recommendations seriously and the Department and services 
have already begun to institute several changes to standardize 
and improve the training, education and care of all soldiers in 
our Nation's military.
    While I applaud these reforms and I hope to learn more 
about their implementation today, I believe that much more 
needs to be done to address longstanding cultural problems on 
the prevention side and greater effectiveness and willingness 
to bring sex offenders to justice on the response side.
    Sexual assault scandals have taken place in every 
administration and in each and every military service from 
Vietnam to the 1991 Tailhook scandal in the Navy, from the 1996 
Aberdeen incidents in the Army to the Air Force Academy in 
2003. They continue today. And what all the experts agree on is 
that many more assaults are unreported.
    Today the subcommittee will finally hear directly from the 
Pentagon's point person, Dr. Whitley, with a specific focus on 
exploring what more we can do to prevent sexual assaults from 
happening in the first place; to provide support, dignity and 
services to victims; and to punish those committing these 
heinous crimes.
    I hope we will all have an open and constructive dialog 
here today, with the goal of empowering sexual assault victims 
to come forward to seek justice and to receive help and to 
ensure a climate in our military where sexual assault is in no 
way either officially or unofficially condoned, ignored or 
tolerated.
    I now yield to the ranking member of the subcommittee, Mr. 
Shays, for his opening. And I want to thank him again for his 
leadership on these issues, for his cooperation, as well as the 
cooperation of Mr. Davis, and for their staff in working 
together with us on a bipartisan basis in preparation for these 
hearings.
    Mr. Shays.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] 51636.001
    
    [GRAPHIC] [TIFF OMITTED] 51636.002
    
    [GRAPHIC] [TIFF OMITTED] 51636.003
    
    Mr. Shays. Thank you, Mr. Chairman. And thank you again for 
holding this subcommittee hearing.
    The subcommittee's continued focus on the problem of sexual 
assault in the military is just an essential effort. We must 
ensure all of our services members are protected from 
predators.
    One of our witnesses today is Dr. Kaye Whitley, who 
testified before this subcommittee in 2006. When she was 
recalled for a followup hearing in July of this year, the 
Department of Defense refused to allow her to appear. I find 
this foolish and perplexing. Our question to DOD was, what 
authority grants them the right to prevent a Government 
employee from testifying before Congress and the American 
people? DOD has not answered this question, and we expect a 
response regardless of the fact that Dr. Whitley is present 
today.
    During that June 2006 hearing, we also heard from Ms. Beth 
Davis, a former U.S. Air Force Academy cadet. She testified 
about being continuously raped by an upperclassman and a 
culture at the Academy that tolerated this destructive 
behavior. Unbelievably, Ms. Davis was discharged for having sex 
at the Academy, while her assailant remained at school. And it 
was not until the June 2006 hearing that Beth Davis received 
her only apology from the Air Force, years after the attack, an 
apology the Air Force provided under duress.
    At the 2006 hearing, Dr. Whitley testified about the 
improvements and effectiveness of the sexual assault program 
implemented since Beth's ordeal, stating over 1 million service 
members and 5,000 victim advocates had been trained on sexual 
assault prevention and awareness. Dr. Whitley also said that 
there were new reporting standards for sexual assaults. I 
believe the Government Accountability Office, GAO, today will 
validate that these measures have been instituted.
    However, at this 2006 hearing, we were also assured a 
Defense Task Force and comprehensive data base on sexual 
assault in the military were days away from being fully 
operational. Given their first meeting occurred 731 days after 
this statement, I hope Dr. Whitley will correct the record 
today and explain to us why it took the task force so long to 
have their first meeting.
    Last month at another subcommittee hearing, we heard from 
Ms. Ingrid Torres, who discussed her ordeal not just as a 
victim but as a patient and recipient of services through the 
Sexual Assault Prevention and Response Program after being a 
victim. I hope the members of the Defense Task Force on Sexual 
Assault have a chance to interview Ms. Torres. I am confident 
she can provide them insight that will help protect the women 
who serve in defense of our Nation.
    The American people, through their representatives in 
Congress, are determined to address the sexual assault problems 
in the military. This commitment is demonstrated through 
hearings, legislation and funding of governmental and 
nongovernment programs. Task forces have been established, GAO 
investigations have been commissioned, and reports published to 
address sexual assault. Now we need to see tangible results.
    The hearing held by this subcommittee 2 months ago was a 
continuation of our ongoing efforts to curtail sexual assault 
in the military. However, instead of partnering with Congress, 
senior figures in DOD chose to prevent, for reasons beyond our 
comprehension, Dr. Whitley from testifying. This is one of many 
reasons why DOD has no credibility with me when it comes to 
protecting our women in uniform.
    The reluctance to allow Dr. Whitley's testimony is 
convincing evidence that DOD is still not serious about the 
problem of sexual assault. Why would senior political 
appointees in DOD impede a congressional hearing and allow 
contempt charges to be filed against a lifelong civil servant 
such as Dr. Whitley?
    The new DOD leadership, Secretary of Defense Robert Gates 
and Secretary of Army Pete Geren, must give sexual assault in 
the military a higher priority. I have tremendous faith in 
Secretaries Gates and Geren, and it is not lost on me that the 
GAO has seen improvements in addressing sexual assault. In 
contrast, I also see a task force that did not meet for 731 
days and the director of the sexual assault program being 
prevented from testifying before Congress.
    There exist very real problems that we must get to the 
bottom of, not next year, not next month, not next week, but 
today.
    I thank the witnesses for being here today, and I look 
forward to their testimony.
    And again, Mr. Chairman, thank you so much for being on top 
of this issue.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 51636.004
    
    [GRAPHIC] [TIFF OMITTED] 51636.005
    
    [GRAPHIC] [TIFF OMITTED] 51636.006
    
    Mr. Tierney. Thank you, Mr. Shays.
    If our witnesses will excuse me for 1 minute, we have some 
housecleaning to deal with.
    With unanimous consent, we are going to invite the Members 
to give an opening statement if they wish.
    Mrs. Maloney.
    Mrs. Maloney. I didn't know that I would be allowed to.
    Mr. Tierney. Well, it is not required.
    Mrs. Maloney. Well, first of all, I would like to thank 
both of you for this hearing. It is very, very important.
    I have been working on this issue for many years, and 
Christopher Shays and I had several hearings on it in the last 
Congress. And I strongly believe that sexual assault and rape 
must be prevented and prosecuted in both civilian life and in 
the military.
    And the FBI has told me that the most harmful crime to a 
human being, preceded only by murder, is rape, that it destroys 
lives. And I would like to place in the record an article that 
appeared in The New York Times magazine section that outlined 
the abuse of power, the culture that continues rape in the 
military. And I find it outrageous that brave women who are 
defending our constitutional rights overseas, that the most 
extraordinary military in the world cannot protect them from 
rape and the culture of rape.
    I want to thank you both for being here. You are in a 
unique position to work hard on policies that can protect women 
from having their lives destroyed by this extraordinary harmful 
mental experience, and we need your help.
    I looked at some of my papers and I found a letter that I 
wrote in 1984 that stated that it had been 16 years--now 20 
years--since we have called upon the Department of Defense, the 
most effective military in the world, to put in place a 
tracking system so we can monitor the number of rapes and 
sexual assault in the military. And I am told that this 
tracking system is still not in place and is not expected to be 
in place until 2010.
    This is absolutely, completely unacceptable. And I view it 
as a military who wants to sweep under the rug rape and 
violence against women and consider it as unimportant. We need 
to protect our soldiers just as much as our soldiers need to 
protect this country.
    I would like to place, with your permission, in the record 
17 reports that have been made in the past 20 years about 
sexual assault in the military, problems in the military, the 
culture, the chain of command, not keeping records--17 
different reports.
    I hope that we can finally get this behind us. I have been 
in Congress for seven terms now, and every single term we have 
had meetings with DOD, and they come in and they confirm to us, 
``We are going to be serious, we are going to take care of 
this, we are going to stop this, zero tolerance.'' But the 
rhetoric is not being turned into the reality of protecting our 
women and, in some cases, men in our military.
    Just as winning a war, winning the peace, protecting our 
country, which DOD is the best in the world, they have to take 
that expertise and can't they put in place a tracking system? 
How hard is that? When you have 20 years to put it in place 
since it was first called for in 1988, then we put it in again 
in the 1990's with an amendment in the DOD bill, it still is 
not in place. So when I see that I think that there is a lack 
of will to succeed or maybe the will to hide an ugly, harmful 
item from public view and from correction.
    And today I congratulate you, Chairman, for calling this 
hearing. I think this is tremendously important. We need to 
protect the men and women in the military from sexual assault 
and a culture that may demean them. We have to put in place a 
reporting system, so crimes can be reported. And we have to 
stop this. The greatest military in the world can achieve this.
    And I would just like to close to say that I come from a 
military family. My brother served in Vietnam. My father served 
in World War II. His father, his grandfather, his grandfather 
before all served in the military of this great country. So I 
feel very deeply and strongly, and I know that you can correct 
this. And I hope this will be the group that will make it 
happen, with the leadership of our chairman.
    Thank you.
    Mr. Tierney. Thank you, Mrs. Maloney.
    Without objection, the article that was referred to in the 
gentlewoman's testimony, as well as the 17 reports, will be 
included in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 51636.007
    
    [GRAPHIC] [TIFF OMITTED] 51636.008
    
    [GRAPHIC] [TIFF OMITTED] 51636.009
    
    [GRAPHIC] [TIFF OMITTED] 51636.010
    
    [GRAPHIC] [TIFF OMITTED] 51636.011
    
    [GRAPHIC] [TIFF OMITTED] 51636.012
    
    [GRAPHIC] [TIFF OMITTED] 51636.013
    
    [GRAPHIC] [TIFF OMITTED] 51636.014
    
    Mr. Tierney. Mr. Turner, if you wish to make an opening.
    Mr. Turner. Thank you, Mr. Chairman.
    I think you are going to hear today from almost all the 
Members who are here that they have had substantial work that 
they have done on the issue of sexual assault. They have 
received a number of complaints from personnel and family 
members that are service members that have indicated that there 
is a high need for attention to this. Our job, as you know, is 
an issue of oversight, legislative, funding authority.
    And I am just really saddened that I have to attend a 
hearing today where Dr. Whitley is coming back to us after she 
was requested to testify on July 31st. And noting in our report 
here on July 10th, the committee received word that the Office 
of the Secretary of Defense would not permit Dr. Whitley to 
testify, the committee having issued a subpoena for her 
testimony on July 28th, yet you never appeared.
    This is such an issue that, as Carolyn Maloney was saying, 
this is destructive to lives. And this is something where--
there is no partisan issue here. There are no shades of issue 
here. This is where we should all be going in the same 
direction. And I just cannot imagine why we did not have the 
cooperation so that we could all work together and go in the 
same direction.
    Maria Lauterbach, the Marine who was raped and murdered and 
buried in the backyard of another Marine after being burned in 
North Carolina, was from my district. Her mother, Mary 
Lauterbach, testified at that hearing. It would have been very 
nice of you to have heard her testimony, because in it she 
detailed a significant number of issues that arose in the 
handling of that case that I believe and she believed put Maria 
at risk, where there was not a recognition that she was at 
risk. And one of the questions I am going to have for you today 
is some of the written responses that I received from the 
Marines that indicated their view of the sexual assault as not 
having been a violent occurrence, when my understanding is that 
inherent in the definition of sexual assault is violence.
    So there is clearly a problem within DOD, a number of areas 
that relate to policy that should be within your purview and 
your job and in the types of things that we need to address 
today.
    Mr. Chairman, I just greatly appreciate your continued 
focus and efforts to give us an opportunity to try to impact 
the policy of DOD.
    Mr. Tierney. Thank you, Mr. Turner.
    And, Mr. Braley, you are recognized for 5 minutes.
    Mr. Braley. Thank you, Mr. Chairman. I would ask unanimous 
consent that my written statement be included in the record, so 
I will keep my remarks as brief as possible.
    Mr. Tierney. Without objection and with great hope.
    Mr. Braley. I want to thank you and the ranking member for 
holding this followup hearing.
    And even though the topic of today's hearing is sexual 
assault in the military, it is closely related to another 
problem, and that is domestic violence in the military. And as 
my colleague just pointed out, the problem we are dealing with 
here is the tolerance of violent acts against women in the 
military who defend us every day. And this, again, hits home 
personally with me, because at our hearing in July of this year 
I spoke about the issue of violence against women serving in 
the military and how it is impacting me and the residents of 
the First District, where I live.
    In July of this year, the body of Army Second Lieutenant 
Holly Wimunc, a young woman from Dubuque, IA, where my wife was 
born, was found near Camp Lejeune in North Carolina. Her 
husband, a Marine corporal, has been charged with her murder. 
Before her death, she had secured a temporary restraining order 
against him and had told authorities that he held a loaded 
handgun to her head. And she leaves behind two children.
    And these tragic stories that we are talking about here 
today demonstrate the pervasiveness of sexual assault and 
violence against female members of the Armed Forces and 
demonstrate the urgent need for reform. That is why all of us 
here today are unanimous in our agreement that we need to do 
everything we can to ensure that victims of sexual assault, 
sexual harassment and violence have access to the resources and 
services they need, including well-trained and supportive 
commanders, independent advocates and qualified mental health 
providers.
    And if this sounds familiar, it is because these are the 
exact same concerns we identified when this subcommittee held a 
hearing out at Walter Reed shortly after I was sworn in as a 
Member of Congress.
    Mr. Chairman, I can remember to this day talking to General 
Schoomaker during that hearing on the subject of post-traumatic 
stress disorder. And I got him to admit on the record that PTSD 
is real. And I looked at him, and I said, ``General, thank you 
for making that admission. Now you need to go back and 
communicate that down the entire chain of command so everyone 
you work with not only understands that is the position of the 
U.S. Army but believes it.''
    And the problem we have had with providing women the 
protection they need while they are serving our country is we 
can have the best written policies in the world, just like the 
ones I saw when I was in private practice representing victims 
of sexual assault and victims of sexual harassment in the 
workplace, you can have the best policies on paper; they don't 
mean a thing unless the people responsible for enforcing those 
policies believe they are important and are committed to making 
sure that the people you are trying to protect actually have 
someone advocating for them.
    And when we were at Walter Reed, we had the same problem, 
that there were no independent advocates for people with 
disabilities to stand up and fight for them within the 
structure of the Department of Defense. That is why it is so 
critical that we take action to make sure these resources, 
these advocates are available. And your presence here today 
puts a punctuation mark on the need, and we thank you for 
joining us.
    Mr. Tierney. Thank you, Mr. Braley.
    Mr. Lynch, you are recognized for 5.
    Mr. Lynch. Thank you, Mr. Chairman.
    I also want to thank the ranking member. I know he had a 
special role in this early on, when he was chairman of this 
subcommittee. I want to thank you both for your willingness to 
hold this hearing, and also I want to thank our witnesses for 
coming forward.
    Very briefly, when you think about how highly we honor 
military service and how that service and sacrifice of American 
families accrues to our benefit here in this country and to 
think that there are men and women--a lot of men. I know the 
talk up here on this side of the panel has been mostly about 
women being assaulted, but based on the population in the 
military, obviously male, we have a huge number of male 
respondents to sexual assault claims. So I don't want that to 
be ignored.
    But when you think about the service and sacrifice of our 
men and women in uniform, to think that there are American 
families that send their sons and daughters to fight this 
Nation's wars and to think that there are men and women who put 
on that uniform and make that tremendous sacrifice on behalf of 
us all and go into the service and then they are subject to 
sexual assault is just unthinkable. It is just totally 
unacceptable.
    I notice also in reading your reports, the GAO reports, 
that a lot of the cooperation depends on the willingness of the 
commander to accept their role and responsibility in 
instituting these protocols. Now, we just have to have zero 
tolerance from top to bottom. I know that we have had 
significant improvement in our military academies because we 
have taken zero tolerance there. And I think we have to go 
forward with the same approach in every base, in every unit in 
the U.S. military. And there is just no other way.
    This is a societal problem and perhaps--not perhaps--it is 
definitely a situation where folks have problems with sexual 
assault and come to the military with that baggage. And we have 
to rout it out. But, you know, we have that responsibility 
here. We owe it to American families that send their sons and 
daughters to war on our behalf, and we owe it to those 
soldiers, sailors, Marines and air men and women themselves.
    So, with that, I want to thank you for your work on this 
issue. And I yield back the balance of my time. Thank you.
    Mr. Tierney. Do you yield back, Mr. Lynch?
    Ms. McCollum, do you wish to be recognized?
    Ms. McCollum. Thank you, Mr. Chairman. Thank you for being 
so persistent to have the witness in front of us today.
    This is an issue, as many on the committee have already 
stated, that we have spoken about time and time again, whether 
before a Members of Congress hearing about what was going on in 
our military academies and then especially in light of what we 
heard being reported out of Iraq.
    I wrote Secretary Rumsfeld on it very simply and asked--I 
am paraphrasing what I asked him--but, ``What is the program? 
Why are you not standing up as the Secretary of Defense and 
saying we have a zero tolerance program?'' And in reading 
through the reports and in quickly reading through the 
testimony, I keep hearing reference to policies and ``this is 
our policy'' and ``this is what our goal is.'' Not once in 
here, quickly--and maybe someone can point this out to us later 
on--do I see ``zero tolerance.''
    That is what we ask of the private sector. That is what we 
ask of our schools to teach. That is what we should expect from 
one another: zero tolerance for any act of violence, especially 
sexual violence, zero tolerance for someone to commit the 
crime, zero tolerance for underreporting these crimes, zero 
tolerance for a commander not to take action.
    So, Mr. Chairman, I look forward to hearing from the 
witnesses. Rather than something that I received in a July 9th 
letter, which I quote from--and I will enter this in the record 
so that it is fully present. At the July 9th letter that I 
received from the Under Secretary of Defense, ``Secretary 
Rumsfeld met in May with combatant commanders to re-enforce his 
desire''--his desire, not his will, not his command--``his 
desire that they take immediate corrective action with respect 
to the climate of reporting systems and care and protection for 
victims of sexual assault.'' It goes on.
    Mr. Chair, we are here again, and it is now September 2008, 
4 years later, and we are still looking for the simple phrase 
``zero tolerance.''
    I yield back.
    Mr. Tierney. Thank you.
    Mr. Yarmuth, you are recognized for 5 minutes if you wish 
to speak?
    You waive on that. Thank you.
    Then the subcommittee will now receive testimony from the 
witnesses that are before us today.
    Dr. Kaye Whitley is the director of the Sexual Assault 
Prevention and Response Office in the Department of Defense. 
She has the office that is self-described as the Department of 
Defense's single point of accountability for all sexual assault 
policy matters. Previously, Dr. Whitley served as senior 
director of communications for the Defense Prisoner of War/
Missing Personnel Office.
    We appreciate your testimony today.
    Ms. Brenda S. Farrell--Ms. Farrell is the director of the 
Government Accountability Office's Defense Capabilities and 
Management team, responsible for defense personnel and medical 
readiness issues. Before her current assignment, she served as 
acting director for GAO's Strategic Issues team, overseeing 
work on strategic human capital, government regulation and 
decennial census issues. Over her 27-year career with GAO, Ms. 
Farrell has earned numerous awards, including one for sustained 
extraordinary performance.
    Ms. Farrell, we greatly appreciate you being with us here 
today. We understand you are suffering from a bit of a cold, 
and if you break into a coughing fit we will all understand. We 
are indebted for all the hard work that you and your staff do, 
and we want to thank your staff for their work as well and for 
coming back a second time with your completed report.
    We thank both of you. Everybody agrees this is a very 
serious issue, so we hope to conduct a constructive oversight 
hearing today to examine the root problems that are involved.
    It is the policy of this subcommittee to swear you in 
before you testify, so I ask you to please stand and raise your 
right hands. And any people that will be testifying with you, 
we ask that they do the same.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that both 
witnesses answered in the affirmative.
    Your full written statements will, of course, already be 
placed in the hearing record, so I ask you to keep your 
statements as close to 5 minutes as you could. I noticed that 
you both have extensive written testimony, so to the extent 
that you can keep that down within 5 minutes, that would be 
good. We will try to be as lenient as we can, but we do want to 
have an opportunity for discussion with everybody.
    Dr. Whitley, you are recognized.

STATEMENTS OF KAYE WHITLEY, DIRECTOR, SEXUAL ASSAULT PREVENTION 
AND RESPONSE OFFICE, U.S. DEPARTMENT OF DEFENSE; AND BRENDA S. 
 FARRELL, DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

                   STATEMENT OF KAYE WHITLEY

    Ms. Whitley. Thank you.
    Mr. Chairman, Ranking Members Shays and other members of 
the subcommittee, I am pleased to be here today to update you 
on the Department of Defense's progress in our crusade against 
sexual assault. Thank you for your statements, and, more 
importantly, thank you for your support.
    Today I stand before you not only as the director of the 
OSD Sexual Assault Prevention and Response Office but as a 
woman who is passionate about caring for the victims of this 
crime. I have been here since SAPRO's inception 3 short years 
ago, and in that time DOD has fundamentally changed its 
approach in sexual assault prevention and response. We are 
proud of the progress that we have made so far, but we know 
that we can always do more to exceed our goals of offering the 
best care and support services for our victims while 
simultaneously preventing this terrible crime from occurring.
    In this statement, I would like to highlight some of our 
accomplishments, as well as some of our challenges. And my 
written statement submitted for the record contains 
significantly more detail, but I hope this overview will serve 
to provide a starting point for our discussions today.
    In 2004, the Under Secretary of Defense for Personnel and 
Readiness established the Department of Defense Care for 
Victims of Sexual Assault Task Force, which was quickly 
followed by the standing up of the Joint Task Force on Sexual 
Assault Prevention and Response. Within 1 year, that task force 
was able to get a DOD directive, or a policy, published. It is 
almost unheard of in the Department of Defense to get a policy 
published that quickly.
    That policy and our program centers around three key 
things: the care and treatment for victims, prevention through 
training and education, and system accountability. This new 
policy revolutionized the Department's sexual assault response 
structure. And in June 2005, we further advanced our policy by 
instituting restrictive reporting, which allows victims to 
confidentially access medical care and advocacy services.
    But at the heart of this policy is a system that respects 
the privacy and needs of the victim. And in October 2005, that 
task force transitioned into the office that I represent today. 
Care and treatment for victims became the foundation of our 
program.
    As you know, sexual assault is the most underreported 
violent crime in our society. And we know that in our lifetime, 
one in six women and 1 in 33 men will be a victim of sexual 
assault. Well, we believe it is also underreported in the 
military, and we know it not only affects the health and 
stability of our warfighters, it has a negative impact on our 
mission readiness.
    So our policy created a unique framework for an expanded 
and thorough response system. We have a 24-hour, 7-day-a-week 
support network at all military installations and even for the 
deployed units worldwide. Sexual assault response coordinators 
and victim advocates are available to provide consultation and 
support so that our military members can understand their 
options and get the care and the support they need.
    Victims have two options for reporting the crime. By 
offering this confidential reporting option, we expect more and 
more victims to come forward. Since June 2005, we have had more 
than 1,800 restrictive reports, and that tells me that is 1,800 
people that would not have come forward otherwise.
    Although immediate care and support of our victims is 
essential, it is equally important to focus on the prevention 
of this crime. And in 2005 we initiated an aggressive and wide-
reaching education agenda. Mandatory sexual assault prevention 
and response training is required of every service member at 
multiple stages throughout their career. And for the past 3 
years, we have focused on making military service members aware 
of the program, their reporting options and the kinds of 
assistance that is available for victims.
    The Department's program provides baseline training for all 
military personnel. As soon as an individual enters the 
military, regardless of rank, we educate him or her about 
sexual assault, about our policies, our programs and our 
prevention strategies. To date, the services have provided 
sexual assault prevention and awareness training to more than 1 
million active-duty and reserve service members. And moreover, 
the services have expanded their training programs to adapt 
training curricula to their unique needs.
    No civilian institution, State government or city has ever 
undertaken a mandate to prevent sexual assault in a population 
as large, diverse and geographically distributed as ours. As we 
develop our prevention strategy, we are literally at the 
leading edge of what social science and public health can tell 
us about what works. By educating our members when and how to 
act, we may be able to turn bystanders into actors who can 
prevent sexual assault. Our prevention efforts come from 
renowned experts who have dedicated their lives to sexual 
assault prevention and response.
    Our aggressive training and outreach program coupled with 
the new option of restrictive reporting sends an important 
message: The Department cares about its members. And we believe 
our service members are hearing us. After 3 full years of 
policy implementation, we are seeing more victims making 
reports and accessing care.
    While we are extremely concerned when even one sexual 
assault occurs, we see the increase in victim reports as a very 
positive indicator of growing confidence in our program. We 
believe the increase in reports is a validation of the need for 
the ability to privately access medical care and advocacy 
services. And we believe that these military members would 
never have sought services had they not had the ability to 
select how and when to engage our support system.
    We have several oversight mechanisms in place to oversee 
and evaluate whether our policy is being implemented 
effectively, including the Sexual Assault Advisory Council 
chaired by Dr. Chu, the Under Secretary of Defense For 
Personnel and Readiness. The Department takes a cross-service 
team to installations and to the academies to assess the 
programs there. We have two annual reports that we make to 
Congress. And we have recommendations from several oversight 
bodies, including the recent GAO report.
    Sexual assault prevention and response efforts are 
coordinated throughout the Department and conducted in 
partnership with the military service programs, the military 
criminal and legal offices, and other Federal partners, 
including the Department of Veterans Affairs.
    Care for victims, prevention through training and 
education, and system accountability--these are the three 
cornerstones of our program. And I have only skimmed the 
surface of a comprehensive but young and evolving program. We 
have accomplished remarkable progress in a short timeframe, and 
we know our work is not complete.
    In the future, we will no doubt meet additional challenges, 
but we will continue to work Congress, the GAO and other 
oversight bodies as we continue to refine the Department's 
sexual assault program.
    Thank you for your time, and I would be happy to address 
any of your concerns.
    [The prepared statement of Ms. Whitley follows:]
    [GRAPHIC] [TIFF OMITTED] 51636.015
    
    [GRAPHIC] [TIFF OMITTED] 51636.016
    
    [GRAPHIC] [TIFF OMITTED] 51636.017
    
    [GRAPHIC] [TIFF OMITTED] 51636.018
    
    [GRAPHIC] [TIFF OMITTED] 51636.019
    
    [GRAPHIC] [TIFF OMITTED] 51636.020
    
    [GRAPHIC] [TIFF OMITTED] 51636.021
    
    [GRAPHIC] [TIFF OMITTED] 51636.022
    
    [GRAPHIC] [TIFF OMITTED] 51636.023
    
    [GRAPHIC] [TIFF OMITTED] 51636.024
    
    [GRAPHIC] [TIFF OMITTED] 51636.025
    
    [GRAPHIC] [TIFF OMITTED] 51636.026
    
    [GRAPHIC] [TIFF OMITTED] 51636.027
    
    [GRAPHIC] [TIFF OMITTED] 51636.028
    
    [GRAPHIC] [TIFF OMITTED] 51636.029
    
    [GRAPHIC] [TIFF OMITTED] 51636.030
    
    [GRAPHIC] [TIFF OMITTED] 51636.031
    
    [GRAPHIC] [TIFF OMITTED] 51636.032
    
    [GRAPHIC] [TIFF OMITTED] 51636.033
    
    [GRAPHIC] [TIFF OMITTED] 51636.034
    
    [GRAPHIC] [TIFF OMITTED] 51636.035
    
    [GRAPHIC] [TIFF OMITTED] 51636.036
    
    Mr. Tierney. Thank you, Dr. Whitley.
    Ms. Farrell, please.

                 STATEMENT OF BRENDA S. FARRELL

    Ms. Farrell. Chairman Tierney, Mr. Shays, members of the 
subcommittee, thank you for the opportunity to be here today 
for this follow-on hearing to discuss issues related to DOD and 
the Coast Guard's sexual assault prevention and response 
programs. My remarks today draw from GAO's recently issued 
report that examine DOD and the Coast Guard's programs 
conducted at this subcommittee's request.
    Sexual assault is a crime that is fundamentally at odds 
with the obligation of men and women in uniform to treat all 
with dignity and respect. Nonetheless, incidents of sexual 
assault are not a new concern. In 2004, following a series of 
high-profile sexual assault cases involving service members, 
Congress directed the Secretary of Defense to develop a 
comprehensive policy to prevent and respond to sexual assaults 
involving service members, including an option that would 
enable service members to confidentially disclose a sexual 
assault incident. Though not required to do so, the Coast Guard 
has developed a similar policy and program.
    My main message today is that although DOD and the Coast 
Guard have taken steps to respond to congressional direction by 
developing and implementing programs to prevent, respond to and 
resolve sexual assault incidents involving service members, DOD 
and the Coast Guard do not know what is working well or what is 
not working with their respective programs.
    My written statement is divided into three parts regarding 
policy, visibility and oversight.
    The first addresses the extent to which DOD and the Coast 
Guard have developed and implemented policies and programs. We 
found that DOD and the Coast Guard have taken positive steps to 
respond to congressional direction. However, implementation of 
the program is hindered by several factors. Those factors 
include inadequate guidance on how the program is to be 
implemented and deployed in joint environments, some 
commanders' limited support of the programs, program 
coordinators' hampered effectiveness when they have multiple 
duties, inconsistent training effectiveness, and sometimes 
limited access to mental health resources.
    The second part of my statement addresses visibility over 
the reports of sexual assault. GAO found, based on responses to 
our nongeneralizable survey administered to 3,750 service 
members in the United States and overseas, that occurrences of 
sexual assault may be exceeding the rates being reported, 
suggesting that DOD and the Coast Guard have only limited 
visibility over the incidents of these occurrences.
    At the 14 installations where GAO administered its survey, 
103 male and female service members indicated that they had 
been sexually assaulted within the preceding 12 months. Of 
these 103 service members, 52 indicated that they did not 
report the sexual assault incident. We also found that factors 
that discourage service members from reporting a sexual assault 
include the belief that nothing would be done; fear of 
ostracism, harassment or ridicule and concern that peers would 
gossip. Importantly, some noted that a report made using the 
restricted option would not remain confidential.
    The last part of my written statement addresses the extent 
to which DOD and Coast Guard exercise oversight over reports of 
sexual assault. DOD and the Coast Guard have established some 
mechanisms for overseeing reports of sexual assault. However, 
neither has developed an oversight framework including clear 
objectives, milestones, performance measures, and criteria for 
measuring progress to guide their efforts. GAO's prior work has 
demonstrated the importance of outcome-oriented performance 
measures to successful program oversight and shown that having 
an effective plan for implementing initiatives and measuring 
progress can help decisionmakers determine whether initiatives 
are achieving their desired results.
    Mr. Chairman, our report made 11 recommendations to DOD and 
the Coast Guard for improving implementation and oversight of 
the programs. DOD and the Coast Guard concurred with our 
recommendations, and we shall monitor implementation of those 
recommendations.
    In summary, Mr. Chairman, a number of implementation 
challenges that, left unchecked, could undermine DOD's and the 
Coast Guard's effort--importantly, without an oversight 
framework in place to evaluate the effectiveness of its 
programs, DOD and the Coast Guard will be unable to determine 
what works well and what is not working well in order to make 
adjustments accordingly.
    Thank you, Mr. Chairman. That concludes my statement.
    [The prepared statement of Ms. Farrell follows:]
    [GRAPHIC] [TIFF OMITTED] 51636.037
    
    [GRAPHIC] [TIFF OMITTED] 51636.038
    
    [GRAPHIC] [TIFF OMITTED] 51636.039
    
    [GRAPHIC] [TIFF OMITTED] 51636.040
    
    [GRAPHIC] [TIFF OMITTED] 51636.041
    
    [GRAPHIC] [TIFF OMITTED] 51636.042
    
    [GRAPHIC] [TIFF OMITTED] 51636.043
    
    [GRAPHIC] [TIFF OMITTED] 51636.044
    
    [GRAPHIC] [TIFF OMITTED] 51636.045
    
    [GRAPHIC] [TIFF OMITTED] 51636.046
    
    [GRAPHIC] [TIFF OMITTED] 51636.047
    
    [GRAPHIC] [TIFF OMITTED] 51636.048
    
    [GRAPHIC] [TIFF OMITTED] 51636.049
    
    [GRAPHIC] [TIFF OMITTED] 51636.050
    
    [GRAPHIC] [TIFF OMITTED] 51636.051
    
    [GRAPHIC] [TIFF OMITTED] 51636.052
    
    Mr. Tierney. Thank you, Ms. Farrell. We appreciate the 
succinctness of your testimony here today.
    We are now going to proceed under the 5-minute rule for 
questioning of the witnesses.
    And, Dr. Whitley, while I don't want to beat a dead horse, 
as the saying goes, I do want to just clear some things up. You 
were served with a subpoena to testify before this committee?
    Ms. Whitley. Yes, sir.
    Mr. Tierney. And you understood the impact and the import 
of that subpoena?
    Ms. Whitley. Yes, sir.
    Mr. Tierney. And it was addressed to you individually, is 
that not right?
    Ms. Whitley. Yes.
    Mr. Tierney. And with whom did you consult when you 
received that subpoena?
    Ms. Whitley. Well, sir, what actually happened, there was 
discussion----
    Mr. Tierney. So with whom did you consult when you 
received----
    Ms. Whitley. Mr. Dominguez, sir.
    Mr. Tierney. Mr. Dominguez, who is the Under Secretary?
    Ms. Whitley. Yes. I did not know that I was not going to 
testify until we had pulled up in front of the Rayburn 
building, and then I was issued the order that I would not be 
testifying.
    Mr. Tierney. And that was on the day of the hearing?
    Ms. Whitley. Yes, sir.
    Mr. Tierney. And it was at that time that Mr. Dominguez 
told you that?
    Ms. Whitley. Yes, sir.
    Mr. Tierney. So you had come fully prepared to testify that 
morning?
    Ms. Whitley. Absolutely, sir.
    Mr. Tierney. And you felt pressured by your employer, your 
supervisor to not appear?
    Ms. Whitley. I was given a direct order to stay in the van 
and return to the Pentagon.
    Mr. Tierney. That is interesting. And we will have to deal 
with that situation. You do understand, however, for future 
times, when a subpoena is addressed to you personally, it is 
your personal responsibility, notwithstanding a superior's 
indication of what their desire might be, to respond to this 
Congress?
    Ms. Whitley. Yes, sir, I understand that very clearly now.
    Mr. Tierney. OK. Well, I am sorry that you were put in that 
position. I am also sorry that you didn't take the personal 
initiative to consult counsel and to act on that. So you didn't 
have a lot of time to act on this, Mr. Shays is saying. So we 
appreciate that, and that is the first we have known of that.
    So thank you for clearing that up. And we are glad you are 
here with us today, and hopefully we will get some information 
that will help us move forward on a policy basis.
    Ms. Whitley. Thank you.
    Mr. Tierney. In the General Accountability Office report, 
it said the Department of Defense guidance may not adequately 
address some issues, such as how to implement the program when 
operating in deployed or joint environments. It said it doesn't 
take into account the unique living and social circumstances 
that can heighten risk for sexual assault or where resources 
are more widely dispersed.
    Let me ask you first, have you or your staff visited bases 
that might be remotely located or overseas?
    Ms. Whitley. No, sir, we have not done that yet.
    Mr. Tierney. So never since the time that the staff has 
been created have you done any onsite visits?
    Ms. Whitley. No. Oh, wait. I am sorry. We have done some. 
Not to deployed areas such as Iraq or Afghanistan, but we have 
done policy assistance visits at other locations.
    Mr. Tierney. How many staff do you have?
    Ms. Whitley. I have seven permanent positions and some 
contract support. There are a couple of those that are not 
filled at this time. So I think I have five.
    Mr. Tierney. And the size of your annual budget?
    Ms. Whitley. The annual budget for the office is roughly $3 
million.
    Mr. Tierney. So is it staff and resources, is that the 
basis for the reason that you have not been able to set up a 
consistent schedule of visiting bases and installations?
    Ms. Whitley. I think the way I would like to address that 
is one of the things that we are finding as our office stood up 
is we were going to be a small policy office, and once the 
policy was written we would monitor the policy and do some 
oversight. But what we are finding, especially as we get 
recommendations from the GAO and the Defense Task Force and as 
we go out, we are finding that we are needing more resources, 
more people, more money so that we can expand our program. And 
we are planning for that and we have budgeted for that in the 
future.
    Mr. Tierney. OK. You understand--I don't want to seem like 
a wise guy. You mentioned that you were on a crusade to get 
this right, but it seems to some--I hope you understand--it 
might be more like a slow walk than a crusade. I mean, you have 
been stood up now since 2004 under the statute, and it seems to 
be a long time to come to the realization that you just don't 
have enough people to oversee and manage the oversight of this.
    When did you first come to that realization, and what did 
you do about it?
    Ms. Whitley. It has been gradual. And also, sir, keep in 
mind that the services, when we implemented our policy, they 
literally were given a policy that they had to implement and 
they had to take the money from other programs. And they are 
still not fully funded to operate the sexual assault prevention 
and response without taking from other funds.
    Mr. Tierney. So, in essence, the Department has not set up 
a clear plan for the different services to implement?
    Ms. Whitley. Well, we have, and we have budgeted--we have 
POM for fiscal year 2010 for enough money to run the programs 
for all four services.
    Mr. Tierney. OK. And what oversight mechanisms do you have 
in place now?
    Ms. Whitley. Well, we have the Defense Task Force, which 
has just stood up and will be going out and looking at our 
programs.
    My office does what we call policy assistance visits, and 
we have people from the service programs go with us, and we go 
into the field and talk to the people that run the programs. We 
have just recently started those. And what we are measuring at 
this time is if the policy is implemented correctly, if there 
are any gaps in the policy, what a particular installation 
needs assistance with, because it is still fairly new to them 
and some of the concepts are still fairly new.
    Mr. Tierney. Did it ever occur to you at any point in time 
to ask the General Accountability Office for a study earlier 
than the one that we asked them to do? If you were short on 
staff and resources, that might have been a resource?
    Ms. Whitley. Well, sir, since the inception of our program, 
we have had a lot of oversight, in terms of--as well as the 
Department of Defense Task Force, the IG. We are really 
grateful for this most recent report, and the Department 
concurred with every single recommendation, and we have already 
begun steps to implement them. I am grateful for some of the 
things that they highlighted because it does give me the 
backing I need to make changes in the program that are needed.
    Mr. Tierney. OK. Have you done a survey or any instrument--
have you used an instrument like that in the course of your 
work?
    Ms. Whitley. We have the Defense Manpower Data Center 
survey. They do a survey every 2 years on gender relations. Is 
that what you are asking me?
    Mr. Tierney. And the nature of that, but that is the extent 
of it?
    Ms. Whitley. Uh-huh, uh-huh.
    Mr. Tierney. Thank you.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Turner, then you will be recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Chairman, I certainly hope that you do followup on all 
the issues of the subpoena not being fulfilled. I greatly 
appreciate the manner in which you have asked the questions and 
that this be addressed.
    One of the things inherent in our democracy is a government 
that is responsible to the people. And being responsible to the 
people goes just right to the issue of oversight, because 
Congress has the responsibility for oversight. And one of the 
ways we do that is we call members of the bureaucracy forward 
and we ask them questions to account to the policy and the laws 
of this country. And when the bureaucracy doesn't respond, the 
democratic processes are breaking down. But when the military 
doesn't respond, when DOD isn't responding, it is even a 
greater concern that everyone has, because that is certainly 
the one agency where history would tell us that there has to be 
an absolute responsibility and responsiveness to the democratic 
institutions or we could all lose our liberty.
    So your not having responded to the subpoena is a very, 
very serious issue, and I appreciate the chairman following up 
on it. And certainly the callousness in which you were directed 
not to attend is a significant issue.
    In my opening, I mentioned that Maria Lauterbach was from 
my community, the Marine who was raped and killed. In your 
statement, you indicated that you saw your office as a policy 
position, and I am going to read a bit from your written 
statement. You have, ``Within 3 months of being stood up, the 
JTF-SAPR created a comprehensive sexual assault provision and 
responsive policy centered around three key themes: care and 
treatment for victims, prevention through training and 
education, and system accountability.''
    I have a policy question for you. It is one that has really 
troubled me from the Maria case. And that is that when the 
Marines came forward with their statement to our country about 
what had happened to Maria, they seemed to indicate that they 
had no knowledge that she was at risk for further violence by 
seeming to indicate that they did not believe that rape was 
inherently violent. So I sent them a series of questions hoping 
that, upon clarification, I would get a different response from 
the Marines that would let me know that they don't hold that 
position. Unfortunately, what I got just made me more 
concerned.
    I asked this question, ``Doesn't a rape accusation 
inherently contain an element of force or threat?'' They give 
me the definition of ``rape'' in the Uniform Code of Military 
Justice. They say, `` `Rape' is defined as the sexual 
intercourse by a person executed by force and without the 
consent of the victim.'' They then go on to say this following 
sentence. Well, first off, let me indicate that they give a 
paragraph where they say that there were two sexual encounters 
alleged, one of which was alleged to be rape. Then they give me 
this sentence, ``Lauterbach never alleged any violence or 
threat of violence in either sexual encounter.'' That is 
obviously very troubling to me, that they would say an alleged 
rape, that the victim never alleged any violence or threat of 
violence in the rape.
    Could you give me your thoughts on that statement?
    Ms. Whitley. Well, I did go out to Quantico to get a 
briefing on that case. Whenever there is a case such as that, 
our office goes to look to see if we can figure out what went 
wrong in the process and is it something that would be an 
implication for our policy.
    One of the things I have been told is that I should be very 
careful discussing the case because of the trial, and I would 
not want to say anything or do anything publicly that could 
keep us from holding that offender accountable.
    But I think what I would like to know, I would like to take 
the case apart from beginning to end and see what happened 
every step along the way after she reported the sexual 
assault----
    Mr. Turner. Before my turn expires, I understand that and I 
understand your concern. That is very, very valid. But that has 
nothing to do with my question.
    My question is, do you find it troubling that they could 
say that an act of alleged rape----
    Ms. Whitley. Oh, absolutely.
    Mr. Turner [continuing]. Did not have an allegation of 
violence or threat of violence?
    Ms. Whitley. Absolutely. I agree with you, sir.
    Mr. Turner. Great. Thank you.
    Now, upon getting this, I wrote to Secretary Gates, 
expecting DOD to be engaged and say, wait a minute, this isn't 
DOD's view, this is outrageous, this is not what we should be, 
A, putting in writing, but, B, we shouldn't be having people in 
management positions that would give this answer.
    So I am going to ask to you, in your position with policy, 
what do you think should be done from your agency with respect 
to managing the policy response of the Marines that have put in 
writing this belief that a rape allegation could be made 
without any violence or threat of violence indicated?
    Ms. Whitley. Well, I find that rather alarming, and I have 
not heard the Marines say that. They did not say that to me. 
But I will certainly followup with them, because there should 
have been some alarm there.
    One of the most difficult things for the people in the 
field when they are working with domestic violence or sexual 
assault victims is the safety issue and the safety planning 
that needs to take place whenever someone reports a sexual 
assault.
    Mr. Turner. Great. I will send this to you. And you and I 
are going to be meeting also later----
    Ms. Whitley. Today, yes, sir.
    Mr. Turner [continuing]. Individually, and I will give you 
a copy of this. And I would prefer your assistance in seeing 
what we can do to get to the bottom of why the Marines would 
ever put something like that in writing or ever even mean it.
    Ms. Whitley. Yes. Thank you.
    Mr. Tierney. Thank you, Mr. Turner.
    Mrs. Maloney.
    Mrs. Maloney. Thank you.
    Thank you very much for your testimony and for being here 
today.
    I would like to ask Dr. Kaye Whitley, why do you think your 
superiors did not want you to testify?
    This committee had to threaten to subpoena four of your 
superiors to come and testify before they allowed you to come 
and testify about your work. From your resume, you are a very 
accomplished woman. I congratulate you on your hard work.
    And I can't think of any reason except that your testimony 
might show that they haven't done anything. That there have 
been 18 different reports since 1988; we have called for, for 
20 years, a data base to be put in place. It is still by all 
accounts not in place, will be put in place in 2010. And in 
this latest GAO report, they talk about in 2004 setting up this 
task force on sexual assault in the military, yet, according to 
GAO, they did not begin to review and do work until August 
2008.
    So do you believe it was because DOD has not addressed this 
problem, has not done anything about it, has ignored it, swept 
it under the rug, has let men and women overseas protecting our 
constitutional rights and the security of our country--that DOD 
has been so ineffective in protecting their personal safety and 
rights in terms of sexual assault? Why do you think it is that 
they would not let you testify?
    Ms. Whitley. Well, Mrs. Maloney, I was not privy to the 
discussions that took place as to whether or not I would or 
would not testify.
    I do know that they felt I was down here on the Hill a lot. 
I am, by the way, willing to meet with any staff member, any 
Congressman, any Senator on this subject, and I am down here a 
lot doing that. And I think they thought that was the best 
forum for me to interact.
    But I was not privy to the actual discussions. I am very 
open, I am very transparent. I will be happy to answer----
    Mrs. Maloney. I know you are. But what this Congress was 
not asking for is meetings, we are asking for results. And I 
would like to focus on the questions of getting this data 
system in place.
    So, Ms. Farrell, the GAO's report and testimony indicates 
that SAPRO, the sexual assault program, is not able to conduct 
comprehensive cross-service trend analysis of sexual assault 
incidents, even though they are responsible for identifying and 
managing trends.
    What obstacles prevent the SAPRO office from conducting 
this type of analysis?
    Ms. Farrell. Several obstacles prevent SAPRO from 
conducting such an analysis. In fact, when this request came to 
GAO, part of the request was for us to look at a trend analysis 
to say what is working well and what is not working well.
    One of the problems that we noted in our January 2008 
report, as well as the one that was just issued, is the lack of 
common terminology for, say, ``substantiated cases'' that 
impacts on what is being put into the individual systems and 
then has that snowball effect of what type of analysis you can 
do.
    In the case of ``substantiated cases,'' there is various 
interpretations of that by the academies. The Navy Academy has 
a very broad interpretation. It can be anything from a report 
that has been in process of being investigated, it can be one 
that has already have a guilty verdict. It is a number of 
obstacles.
    Mrs. Maloney. I see this is something we should review 
more, and I would like to followup with a meeting with you.
    But how in the world can SAPRO fulfill its oversight role 
without this information, Dr. Whitley?
    Ms. Whitley. Well, we do a report to Congress every year 
that we deliver on March 15th that has aggregate numbers of 
sexual assault.
    Once again, as the program is growing and emerging, we, 
like GAO, are figuring out we need to be able to look at this 
data in a lot of different ways. The way we collect data, at 
this point in time, we provide matrixes to the services, they 
fill them out, they bring them to us, we add them up, and we 
meet the requirements of the NDAA. But we know we need a better 
system.
    Mrs. Maloney. Well, in the DOD response to the GAO report, 
the Department is--they said that they were currently drafting 
a letter for the SECDEF signature, ordering the military 
services to provide installation data to SAPRO.
    Has this letter been drafted? Has it been signed? Are the 
services complying?
    Ms. Whitley. They are complying, and we are receiving data 
by installation.
    Mrs. Maloney. Has the letter been drafted?
    Ms. Whitley. I believe the letter has already been sent.
    Mrs. Maloney. Could we get a copy of that letter?
    Ms. Whitley. Uh-huh.
    Mrs. Maloney. My time has expired. Thank you.
    Mr. Tierney. Mr. Yarmuth, you are recognized for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman. I have very little 
voice so I am just going to ask one question. I think all of us 
are concerned about what appears to be a reluctance of 
commanders and others in the hierarchy to take this seriously 
and to participate in the oversight of these issues. Is there a 
history of the military using this compliance or the 
cooperation and your efforts part of the promotion process and 
evaluation process? And if not, should it explicitly be made 
part of it?
    Ms. Whitley. Well, I don't think it is explicitly a part of 
it. But a commander in the military service is given a lot of 
responsibility. And we have a lot of faith in their judgment in 
handling a crime that happens in their unit.
    I will go on record to say what we are finding as we go 
out--and the GAO will confirm--when you go to an installation 
or to a program, the program is only as good as that commander 
and the sexual assault response coordinator. Those are two key 
people. They have to work closely together in order for the 
program to be effective and to work. But at this time it is not 
part of any evaluation of a commander.
    Mr. Yarmuth. Would that seem to make sense, to make it part 
of the explicit responsibilities?
    Ms. Whitley. What I would fear, I think we should hold 
commanders accountable and we should hold them accountable for 
the program. The danger and the challenge is sometimes that may 
be misinterpreted as holding them accountable for the numbers. 
And we certainly do not want to do anything so that commanders 
would feel that they had to drive the reporting of sexual 
assaults underground. So I think if they are held accountable 
when we do our evaluations they should have a good program in 
place, they should have a good relationship with the SARC, they 
should have a prevention strategy.
    But as far as the numbers of sexual assaults that really 
would not--if you have high numbers, that may mean they have a 
good program and that there is confidence in the system. If 
they have low numbers, it may mean people are afraid to come 
forward, or it could be quite the opposite. It is very 
dangerous to draw any kinds of conclusions from the numbers of 
sexual assaults. So that would be what I would say, that we 
have to hold them accountable for the program.
    Mr. Tierney. Does the gentleman yield?
    Mr. Yarmuth. Yes.
    Mr. Tierney. Dr. Whitley or Ms. Farrell, what 
accountability mechanisms do you even have if you find the 
commanders are not implementing the program or they are sort of 
undermining it or they are just ignorant of it after training? 
What are your mechanisms for enforceability?
    Ms. Whitley. That report would--we write reports and it 
would go to Dr. Chu and then he would probably work that with 
the military side of the house.
    Mr. Tierney. OK. Thank you. Yield back, Mr. Yarmuth.
    Mr. Platts, you are recognized for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman. I want to first 
commend you and Ranking Member Shays for the last session and 
this session, staying very focused on this topic, and the 
importance of doing right by our men and women who are serving 
us so proudly in our Nation's Armed Forces, and that we stand 
by them if they are victims of sexual assault and do everything 
we can to prevent that.
    I have, I guess, a concern, having sat in on hearings last 
session and this session that while we're making headway, it 
certainly doesn't seem to be as quickly as we would like or as 
thorough and comprehensive. And that's troubling given the 
seriousness of this--and other Members have talked--we're 
talking about criminal acts here. That's what sexual assault is 
and it should be created as such.
    I know in last session, one of the hearings we had 
representatives from the academies testify, senior officials. 
Only one of those individuals, even though they were talking 
about what they were doing to combat this issue, only one 
referenced this issue and these acts as crimes, which is, I 
think, one of the challenges in the military is that we're 
maybe not yet fully appreciating what the civilian society has 
come to fully appreciate, that these are criminal acts and the 
perpetrators need to be treated as such, as criminals.
    My specific question, Dr. Whitley, is on the issue, kind of 
a followup to what the chairman just asked. In the response 
when there isn't cooperation, and my understanding you've met 
with GAO and their work and the investigations they've done and 
have made some specific recommendations, is it accurate that to 
this very day, many of your recommendations or some of your 
recommendations have not been acted on by various branches?
    Ms. Whitley. We have all begun the process of acting on all 
of the GAO recommendations. We concurred. I think the services 
concurred and made some comments, but we have all begun the 
process of acting----
    Mr. Platts. But my understanding is you made specific 
recommendations and that certain branches of the military have 
refused to act on those recommendations.
    Ms. Farrell. I think you're referring to what we just 
discussed about the installation-level data. We thought that 
would be beneficial to SAPRO to do a trend analysis, to not 
compare the installations, but to see where there are problems 
and discover what the root of those problems so that actions 
could be taken. It is our understanding from the comments back 
to GAO on that specific recommendation, the services had 
objections to it.
    Mr. Platts. And--and that your reference, Under Secretary, 
to what may happen, but I guess what has happened is what I'm 
after. Has there been an effort on the military side to go down 
and say, you know, these are not just recommendations, but 
these are issues that you need to address and comply with? Or 
is it still in limbo that there may be a discussion on the 
military side to bring those installations in line with 
everybody else? Because one of the things I think we're after 
is consistency across the board, whether it is Army, Navy, 
Marines, Air Force, that everybody is on the same page, 
treating these crimes and trying to prevent these crimes in the 
same manner to the best of our ability.
    Ms. Whitley. Yes, sir. I think that was one of the primary 
reasons for the creation of the office I represent is to get 
that consistency of excellence across all of the services. At 
this point all of the services are fully on board with 
implementing the GAO recommendations and we've started the 
process.
    Mr. Platts. So when you say, ``are on board with 
implementing,'' so at this point there is no refusal to 
implement recommendations you've made?
    Ms. Whitley. I'm not aware of any.
    Mr. Platts. I hope that's accurate and continues to be the 
case, because this issue needs to be given, I think, the 
highest priority when we're asking these men and women to go 
into harm's way in defense of our Nation that we do right by 
them. Again, thank you for your testimony.
    Mr. Chairman, thank you again to you and Ranking Member 
Shays.
    Mr. Tierney. Thank you Congressman Platts.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. No, no, Ms. Harman.
    Mr. Tierney. Ms. Harman, are you prepared?
    Ms. Harman. Thank you, Mr. Chairman and ranking member, for 
letting me participate in this panel again. I appreciated the 
chance to be here on July 31st, I missed Dr. Whitley; I'm glad 
she's here today. And I'm very glad that the DOD has corrected 
a bone-headed decision by Michael Dominguez, the Deputy Under 
Secretary for Personnel, to block your appearance and counsel 
you to defy a subpoena of Congress, a huge mistake. And 
obviously higher levels overrode that decision. I'm happy to 
see you again.
    Dr. Whitley is known to me. I've met with her numbers of 
times. This issue is a passion of mine. I think that we are in 
every way failing women in the military if we don't act and 
take stronger measures. I commend SAPRO for the efforts you're 
making. However, I believe you don't have the jurisdiction and 
the clout in the DOD to get the whole job done. And I think 
that the comments by the GAO are useful, but I don't think that 
SAPRO will be able to self-correct.
    I wanted to let our colleagues know, Mr. Chairman, that 
yesterday I attended an Army roll-out of a program that I think 
has enormous promise. It is called the ``I Am Strong 
Campaign.'' It is described in today's Army Times and it is the 
brain child of Army Secretary Pete Geren, our former colleague 
whom I served with on the Armed Services Committee and 
supported totally by the military side of the Army. George 
Casey apparently is there today at a 4-day work session to 
discuss the program.
    What the program is intended to do is to create zero 
tolerance for sexual assault and rape in the Army, which is a 
million people strong, and to make this program fully effective 
over 5 years. This is what we need. And it will include massive 
reorganization of the training programs in the Army so that 
recruits, both women and men, and their supervisors understand 
what the bright red lines are. And it should result in a higher 
prosecution rate which has been the big problem, at least to 
me, as one who with you has studied this problem for years. So 
I want to put out there that part of DOD is moving swiftly and 
has senior leadership behind the effort. And I want to do 
everything I can to be helpful.
    The other thing I want to mention, Mr. Chairman, is that H. 
Con. Res. 397, which Mr. Turner and I have introduced, which 
will again call on DOD to have a real strategy here, is being 
introduced today in the Senate and it will be offered today on 
the Senate floor as an amendment to the Defense authorization 
bill which is pending on the Senate floor. So there is at least 
hope that Congress in the other body will start to take action, 
and I hope we will soon too.
    My question for Dr. Whitley, if I have time remaining, I 
can't really see the clock, is what do you know about the ``I 
Am Strong Campaign'' and what are your views of it?
    Ms. Whitley. I think it is an outstanding campaign. The 
Department--we are also releasing one in the fall that is 
similar to that's called the ``My Strength Campaign.'' I think 
it's an outstanding way to get at the young men and women. If 
you take apart our data, you will see that the largest number 
of cases are the 18- to 24-year olds. And we are looking at 
ways to go for that target population and we're working with a 
group called Men Can Stop Rape. And we're going to take it--
look at it from the male side, I am strong, my strength is not 
for hurting. And the Army campaign is very similar. We will be 
rolling out one that will work very well with that one in 
fiscal year 2009, this fall.
    Ms. Harman. Well, just to comment on that, I am pleased 
that you are doing that and I was aware that you were taking 
more action next year. The good news is the Army is taking more 
action yesterday. And we don't have any days to waste. The 
stories of the suffering of military women are intolerable. As 
Pete Geren said, this is immoral, it is repugnant, it is 
inconsistent with military values. And he feels this is the 
challenge of our time, identical to the challenge the military 
had to integrate on the basis of race in the mid-20th century. 
It succeeded there and it has to succeed now. I hope there will 
be a lot of progress before 2009.
    Thank you, Mr. Chairman, again for letting me participate.
    Mr. Tierney. Thank you, Ms. Harman.
    I will just use the Chair's prerogative for a little 
editorial note here. Mrs. Maloney was testifying earlier about 
some 20 years of activity in this area, of insisting on things 
get going, so let's hope that the Army and Department of 
Defense is going to step up here and we are not just being 
given another 5-year program that kicks the can down the road.
    Dr. Whitley, were you aware of this program that the Army 
was doing? Was your office the initiator of that program or 
what was the relationship?
    Ms. Whitley. Well, we work very closely with all the 
services, and last year we held a prevention summit with all of 
the services. And each of the services are working on their own 
prevention strategies. The Army got out ahead of the pack and 
came up with a wonderful idea. We are working with them as well 
as the other services and with the ``Men Can Stop Rape.''
    And Ms. Harman, what I mean by next year is October 1st, so 
fiscal year, so something very similar will be rolling out for 
all the Department of Defense this fall.
    Mr. Tierney. Thank you.
    Mr. Shays, you are recognized for 5 minutes.
    Mr. Shays. Thank you, Mr. Chairman, for having this 
hearing. Ms. Whitley, I am struggling with not that you 
disobeyed the subpoena, particularly given that you were 
prepared to testify and you were told you were not to testify, 
you know, just evidently an hour or so before you were to 
testify and you actually were in the vehicle. Was there some 
dialog in the vehicle that led to your--their deciding that you 
shouldn't testify?
    Ms. Whitley. No, sir, not really. We pulled up in front of 
the building and Mr. Dominguez said, ``You will not be 
testifying,'' and asked me did I understand that he was giving 
me a direct order.
    Mr. Shays. And he called it an order.
    Ms. Whitley. Uh-huh, yes.
    Mr. Shays. Did he explain to you why?
    Ms. Whitley. No, sir.
    Mr. Shays. Did you say ``Yes, sir'' or did you try to 
basically ask why?
    Ms. Whitley. I really didn't have a lot of time. And as an 
employee of the Department of Defense for almost 18 years, I 
have always followed orders from my superiors, so I thought 
that was the best course of action.
    Mr. Shays. I wrestle with the fact that in our 2006 
hearing, June 2006, Mrs. Maloney asked you about the Defense 
Task Force for Sexual Assault and you said it would be meeting 
the next month, and it didn't. It didn't meet the month after, 
it didn't meet the month after that, it didn't meet the month 
after that, it didn't meet the month after that, didn't meet 
the month after that, it didn't meet the month after that, did 
meet the month after that, it didn't meet the month after that. 
It didn't meet for 731 days. Why?
    Ms. Whitley. When I testified at that hearing, that was the 
information that I was given when I came into the hearing, that 
it would be stood up. That task force is congressionally 
mandated and it will oversee and evaluate the program for which 
I am responsible. So I--that's another thing that I was not 
privy to any of the discussions about the delays in the task 
force. One of the----
    Mr. Shays. You know what, you testified under oath that it 
would be meeting. I would----
    Ms. Whitley. That's what I was told.
    Mr. Shays. Well, that's fine, but it didn't.
    Ms. Whitley. Right.
    Mr. Shays. And I'm struck by the fact that you had an 
obligation to make sure that the record would be clarified. Do 
you know why it didn't meet?
    Ms. Whitley. My understanding is they had a difficult time 
getting the right people on the jobs and getting them cleared. 
I was not--as I said, I was not privy. One of the things that--
--
    Mr. Shays. I understand that you--I view you as being in 
charge of sexual assault in the military.
    Ms. Whitley. Uh-huh.
    Mr. Shays. Are you in charge?
    Ms. Whitley. I am, but the Defense Task Force is similar to 
the GAO. So I would not have any interaction with the GAO as to 
when--where they went or how they started their investigation. 
The Defense Task Force is similar to the GAO in that they will 
be evaluating the program for which I am responsible. So----
    Mr. Shays. So let me be clear so I understand. This is a 
task force that, from your standpoint, is evaluating how you're 
doing?
    Ms. Whitley. Yes, sir.
    Mr. Shays. OK. And so the fact that it wasn't set up to 
look at what you were doing, your view was, well I'll just keep 
doing my job?
    Ms. Whitley. Yes, sir.
    Mr. Shays. OK. Well, you know, I think it would have been--
I would be very conscious, if I was giving testimony before 
Congress, that if something I said was going to happen didn't 
happen, that I would make sure that they know that it hadn't 
happened. I don't know. Was there a point where you ever 
thought about it, like a year later, my God this thing hasn't 
met, I said it was going to meet?
    Ms. Whitley. As I said, I wasn't privy to the discussions 
about why----
    Mr. Shays. The problem I'm having is that it sounds like 
you're weak. It sounds like if you're not privy, then so be it. 
And we don't want someone weak in this office. We want a change 
agent. We want someone to shake it up. We want someone to get 
in trouble. We want someone to have to come to us, to say, 
``You know what, I'm so aggressive they are going after me,'' 
and then we would look to protect you. We don't want you to be 
passive. It almost has a feeling like you're being abused, 
ironically, in a different way.
    We need to sort out really--the fact that you were ordered 
not to testify is not only dumb and foolish, it raises huge 
questions as to why. Did they think you would be too 
transparent? Did they that you would just speak the truth? Did 
they think that you wouldn't be persuasive enough?
    I can tell you Mr. Dominguez was not persuasive. He came 
across a bit arrogant, as I saw it, so I think we've got a 
problem. And unfortunately you're going to have to pay some of 
the penalty, because you can't be out of the loop, you can't be 
passive. You need to be aggressive. And I will tell you why. 
Every time I think of Beth Davis being kicked out of the 
Academy because, ``she had sexual activity in the Academy when 
she was raped and the person who raped her was allowed to 
stay,'' I find it beyond comprehension. She needs someone who 
will shake things up.
    Mr. Tierney. Thank you, Mr. Shays. We're going to wind this 
up with one last round of questions for those that want to. I 
think Mr. Shays makes an excellent point here, one that we've 
been sort of subtly trying to convey. And I think his 
directness is well served here. If you're not privy to whether 
or not the task force is going to be stood up and you're not 
out there fighting to get it stood up, understanding how 
integral it is to this legislation and to your role, then 
probably you need to find out why you're not doing that part of 
your job.
    If you're not even consulted on whether or not you're going 
to testify and then have no opinion about whether you testify, 
and have no conversation with anybody about whether you are 
going to testify, that raises some serious concerns on that, on 
how you see your job, but also how they treat this job, the 
lack of seriousness with which they treat this whole operation. 
This is evidence I think of the deeper culture problems that we 
have with the issue itself on this area.
    I'm just going to go quickly through. You have reports on 
the General Accountability Office about problems with the 
implementation of the programs; they are hindered because the 
program coordinator position is sometimes seen as a collateral 
duty. Would you agree with that on some occasions?
    Ms. Whitley. Absolutely.
    Mr. Tierney. Well, if you agree with that on some 
occasions, you would expect you would have done something about 
it, you would have spoken up about it, you would have gone to 
your superiors and said this isn't working. If they lack 
resources dedicated to the program, you would have fought for 
those programs. If they lacked commander understanding, you 
would have fought to try to implement something to make sure 
they understand. If they don't consider it a priority, you 
would have been fighting to make it a priority. I have a sense 
that your superiors are just OK with all that. And they are 
happy to have you there not rattling the saber and just going 
on for that.
    If you're not systematically evaluating the effectiveness 
of the training that's provided, they seem to be OK with that. 
You shouldn't be. You shouldn't be. And we shouldn't be 4 years 
into this operation to find out why this hasn't been done yet. 
Why haven't you systematically evaluated the effectiveness of 
the training program to this point in time?
    Ms. Whitley. It is very difficult to evaluate. I don't 
think anyone in the civilian world knows how to evaluate the 
effectiveness of training in sexual assault. We can evaluate 
the implementation of the training, and we are doing that.
    Mr. Tierney. Ms. Farrell, do you think that GAO can find a 
way to do that?
    Ms. Farrell. Our concern about the effectiveness of the 
training centered from our interviews and the survey 
respondents that disclosed. They did not understand how to use 
the restrictive option, although most of the service members we 
surveyed had taken the training and it ranged, from 
installation to installation, from at least half to at least 90 
percent or less. There was a wide variety that did not 
understand how to use the restricted option. The problem with 
that is if they do not understand what the restricted option 
offers them, they could mistakenly report it to someone else 
and thus lose their rights to keep that incident confidential 
and not trigger an investigation.
    So our concern about the effectiveness is not related to 
the numbers that are necessarily being sexually assaulted, but 
indications from our survey and our one-on-one interviews with 
100 service members showed that quite a number of the service 
members did just not understand the reporting options. That's 
what we would like to see them focus.
    Mr. Tierney. So what you did was a systematic evaluation of 
whether or not the training program was effective, right?
    Ms. Farrell. Yes.
    Mr. Tierney. So I would expect, Dr. Whitley, that if you 
don't think you have the resources to do that--and seven people 
doesn't seem like quite enough to go about that aggressively 
over that period of time--then it would be your position as the 
head of this program to fight for that.
    Ms. Whitley. Uh-huh.
    Mr. Tierney. To make that recommendation. There is a 
shortage of mental health providers, the General Accountability 
Office thought. Do you agree with that?
    Ms. Whitley. Yes.
    Mr. Tierney. What have you done about that?
    Ms. Whitley. Oh, I have met with the OIPT and the senior 
counsel.
    Mr. Tierney. Who is the OIPT?
    Ms. Whitley. It's a group that meets about the Wounded 
Warrior Program. We made a presentation, as Mr. Braley was 
discussing, to try to draw a connection or to prove that there 
is a connection between sexual assault and PTSD, and that early 
intervention can go a long way to delaying those or minimizing 
the symptoms of PTSD. And I did that in hopes of getting some 
funding under Wounded Warrior for the sexual assault program.
    Mr. Tierney. And that's it--what else? Have you thought 
about the larger question of just there being a shortage of 
people in that mental health area?
    Ms. Whitley. We have met with the director of health 
affairs and we work very closely with Health Affairs and DOD 
and we've made them aware of that.
    Mr. Tierney. Have there been funding recommendations made 
to Congress that you've initiated for resources?
    Ms. Whitley. We have just recently put in our POM, as I 
said earlier for fiscal year 10, we've asked for full funding 
for our program--for Army, Air Force, Navy, Marine Corps, Guard 
and Reserve programs.
    Mr. Tierney. Now where do we stand on your development of a 
proper framework of setting out clear objectives and 
milestones, performance measures and criteria for assessing 
your operation?
    Ms. Whitley. We have a strategic plan and it is almost 
completed.
    Mr. Tierney. Ms. Farrell, have you seen that program yet?
    Ms. Farrell. No, we have not. But I believe they have been 
working on it since we issued the report. So we would look 
forward to seeing that, to see if it does contain the elements 
that we've discussed in the report.
    Mr. Tierney. Would you share that with Ms. Farrell?
    Ms. Whitley. Absolutely.
    Mr. Tierney. Ms. Farrell, will you then give us your 
assessment when you can?
    Ms. Farrell. Certainly.
    Mr. Tierney. Thank you. Mrs. Maloney.
    Mrs. Maloney. Thank you very much, Mr. Chairman. I'd like 
to reference Congressman Shays's comments about recruit Beth 
Davis. She was raped, undisputed, and booted out. Yet her 
rapist stayed and probably got a promotion. We need to reverse 
this trend and this treatment.
    Ms. Farrell, your written testimony indicates that the 
victims' advocates office and criminal investigation offices in 
the Defense Department reports incidents of sexual assault 
differently, which negatively affects the reports provided to 
Congress and others. I would like to request that you further 
expand in writing this information and provide it to the 
committee, because I think it's very important.
    Your testimony also mentions the confusion caused by 
double-listing incidents as restricted and unrestricted. Would 
you please explain to us how this problem arose and how it 
affects the Defense Department annual report?
    Ms. Farrell. It goes back to what we were discussing when 
we began the questions about the different use of terms among 
the services, and that affects how they report the data which 
ends up with Congress. The duplication can be from--you 
mentioned the victims versus the criminal investigators. The 
victims' advocates report their data based on the number of 
victims. That's who they see, so that the data is reported by 
the number of victims. Whereas the criminal investigators in 
some cases report the number of incidents that could involve 
multiple victims. So you could have a duplication of incidents, 
you could have a duplication of victims in that manner. It goes 
back to the inconsistency in the terminology, and how the data 
is being collected and the methodology to filter through that 
and report it to Congress.
    Mrs. Maloney. Well, Ms. Farrell, what would you require 
from the services or other Defense Department offices to obtain 
the necessary data? What would you require, what elements would 
you require? You mentioned it should all be in the same form, 
but what are the specific elements or actions or incidents that 
you would require?
    Ms. Farrell. I think this goes back to that strategic 
framework, what's the goal? A report is not going to do 
Congress or SAPRO or GAO, add any value to the discussion, 
unless the goal is clear first of what the office is trying to 
achieve. And then from that comes what's the data----
    Mrs. Maloney. I believe the goal both from 1988, 1994 and 
many of the requests from Congress is to create a comprehensive 
data system that tracks the number of sexual assault to females 
and males in the military. Whether there was any action to 
followup, whether the rapist got promoted and the woman raped 
got booted out. This is the type of thing that is reported to 
us and we want the scientific data to follow that up. So what 
would you request, knowing that as the goal?
    Ms. Farrell. I don't think that DOD could produce the data 
that you're talking about. The type of data would be down to 
the installation level, making sure that everyone is using 
consistent definitions to report up in terms of incidents that 
include the number of victims, whether the victim is a service 
member or a civilian. There's confusion sometimes in that 
regard of--but it would have to be very specific elements of 
victims, incidents, where the incident took place. Consistency 
of terminology is critical in order to get the type of 
information that you are requiring.
    Mrs. Maloney. And I would like to ask Ms. Farrell first, 
and then Dr. Whitley, why has it taken so long? Why can't we 
set up this data system? Why can't we achieve zero tolerance? I 
finally agreed with Secretary Rumsfeld when he said zero 
tolerance. Why haven't we been able to achieve this and why has 
it taken so long?
    Ms. Farrell first, and then Dr. Whitley.
    Ms. Farrell. Well, from GAO's perspective it goes back to 
what's the goal. And there is not a plan that is result-
oriented to get the services to a zero tolerance policy 
actually implemented that way. There's not clear goals with 
long-term objective milestones to measure the progress. So that 
for us, you need a comprehensive integrated framework that 
would bring all this together with specific actions to measure 
the progress to reach the goal.
    Mrs. Maloney. Dr. Whitley.
    Ms. Whitley. And we are going to have that. And in terms of 
the data base we have met. Because of the GAO report we have 
pulled all of the legal investigators together and we are 
working to--all of those process definitions that give us a 
difficult time in interpreting the data, we are going to 
standardize those definitions for the DIBERS data base which is 
the criminal data bases. We also were just awarded moneys from 
the end-of-the-year funds to start a more comprehensive data 
base. We are finding as we get more and more reports from the 
GAO and the Defense Task Force from the academies that we do 
need a better and more comprehensive way of looking at the data 
so we can slice and dice it any way and use it for program and 
policy implications, and we have started that process to get 
that type of data base.
    Mrs. Maloney. Well, it is almost common sense that you have 
uniform terminology, that you have this data base. But we've 
been working on this for well over 20 years. Why has it taken 
so long? Dr. Whitley?
    Ms. Whitley. I can just say we have made progress on that 
in just the last few months in getting those definitions 
standardized. And each service, they have three different 
criminal investigative offices.
    Also we did not start collecting data aggregately until 
2004. So we've only been doing this for the last 3 years. The 
first year we called up the three service and asked them, How 
many reports of sexual assault did they have? The second year 
we were putting the policy in place, they reported the numbers 
to us and we reported them aggregately and so on. So we have--
we do have the money in place for a comprehensive data base at 
this time and we do have the legal and investigative side of 
the house on board with standardizing the definitions.
    Mrs. Maloney. My time has expired. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mrs. Maloney. I want to wind this 
up by saying I think one of the reasons I suspect that people 
didn't want you to talk to Dr. Whitley is that they thought 
that they could be slicker and gloss over what appears to me to 
be an abject failure of this system to work so far. As a single 
point of accountability for the Department of Defense sexual 
assault policy, it isn't happening. And I think that's 
something that perhaps your superiors didn't want us to know.
    It isn't happening in large part because they don't seem to 
be putting the kind of seriousness and importance in this issue 
and its resolution that needs to be put there. And we would 
hope that in your office you would begin to start purring some 
pressure upward on this thing if you're not getting the 
pressure downward. We don't really want GAO to have to do your 
job. All of these things that GAO has done with things with 
this department, with this particular office, should have been 
implementing right along, and it shouldn't take 3 to 4 years to 
do it.
    So your superiors, they have fallen down on the job. You 
can certainly do better as we have seen here. And even though 
you're understaffed with seven people and a few contractors or 
whatever, maybe you should fight for more resources so that you 
can do all the things that Ms. Farrell and her staff's report 
indicate ought to be done.
    Clearly after 20-odd years, Mrs. Maloney says this is not 
where we should be. And that's the job of this committee to ask 
the questions why. I think we have some answers why right now 
and the principle one is they don't think it's serious enough, 
they are not taking this seriously at the Department of 
Defense. And we are going to keep on this issue with oversight 
and keep measuring this, and with the good offices of General 
Accountability Office to help us out as our investigatory arm, 
keep following this until the members of our service can get 
the feeling that when they in duty to their country, 
sacrificing their lives and their health, that we're going to 
be standing there for them to make sure that these types of 
incidents don't go on.
    I know in your heart this is what you want to do also. I 
know you're a good person. I know you're well qualified, and I 
know your intentions are there. We need to ask you to steel up 
a little bit and get ready to push back on that and we'll take 
care of your superiors on this, including their conduct in 
instructing you not to testify.
    Ms. Whitley. Yes, sir.
    Mr. Tierney. That will not be dropped either. I think you 
were put in an awful situation on that. You were probably in no 
position to do something about it yourself. Certainly, believe 
me, we are.
    Ms. Farrell, thank you and your staff. Are your staff 
members here who helped you with this?
    Ms. Farrell. Yes. Marilyn Wasleski, and Pawnee Davis, and 
Cheryl Weissman, those that are left from this. They have moved 
on to other assignments.
    Mr. Tierney. Our appreciation goes to you and the three 
ladies with you. Thank you very, very much for your service and 
the work that you do. We appreciate it. This meeting is 
adjourned. Thank you.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
